            AUDIT OF THE
GREATER CHICAGOLAND SERVICE CENTER
      PUBLIC BUILDINGS SERVICE
        GREAT LAKES REGION
  REPORT NUMBER A060125/P/5/R08004
             JUNE 4, 2008
                                AUDIT OF THE
                    GREATER CHICAGOLAND SERVICE CENTER
                         PUBLIC BUILDINGS SERVICE
                            GREAT LAKES REGION
                      REPORT NUMBER A060125/P/5/R08004

                              TABLE OF CONTENTS

                                                                     Page

REPORT LETTER                                                         1


INTRODUCTION                                                          1

     Background                                                       1

     Objectives, Scope and Methodology                                1

RESULTS OF AUDIT                                                      3

     Brief                                                            3

     Findings and Recommendations                                     3

             Finding 1 – Additional Procurement Controls Needed.      3

             Finding 2 – Contract Administration Problems             9

             Finding 3 – RWA Controls                                11

             Finding 4 –Inadequate Disclosure Provided in Contract   12
                        Solicitation

     Discussion of Management Response and Audit Analysis
           Regarding Finding 1                                       15

     Other Issues                                                    17

     Quality Controls Over Service Contracts                         17

     Internal Controls                                               17
                            AUDIT OF THE
                GREATER CHICAGOLAND SERVICE CENTER
                     PUBLIC BUILDINGS SERVICE
                        GREAT LAKES REGION
                  REPORT NUMBER A060125/P/5/R08004


                           TABLE OF CONTENTS
                               (Continued)

                                                           Page

A. Review of Service Contracts                              18

B. Security Clearances                                      20

C. Review of Additional Orders                              21

D. Subcontractor Labor Costs                                25

E. Unobligated RWA’s (Unfilled Customer Orders              26

F. RWA Balances on Delivered Orders                         27

G. RWA Procurement File Defenciencies                       28

H. Regional Administrator’s Response to the Draft Report    32

I. Report Distribution
1
                                AUDIT OF THE
                    GREATER CHICAGOLAND SERVICE CENTER
                         PUBLIC BUILDINGS SERVICE
                            GREAT LAKES REGION
                      REPORT NUMBER A060125/P/5/R08004

                                    INTRODUCTION

Background

GSA has the responsibility to provide fully serviced space to house Government
agencies in federally owned and leased buildings. GSA’s Public Buildings Service
(PBS) service centers, located throughout the country, fulfill the needs and requests of
Government agencies that occupy space in the buildings. In general, service center
activities include procurement, asset management, and contract and lease
administration. The service center also provides the technical resources necessary for
building repairs and workspace alterations.

The Greater Chicagoland Service Center (GCSC) which is headquartered in Chicago,
Illinois, managed 7,182,529 square feet of space in 22 Government-owned buildings
and 3,326,954 square feet of space in 148 leased buildings located in the states of
Illinois and Indiana.

The GCSC has a staff of 80 employees and is organized into eight teams. The teams
are the Dirksen Courthouse Team, Kluczynski Team, Clark St. Team, Greater
Chicagoland Leasing Office, Metcalfe Team, Northwest Indiana Team, Technical Team
and Procurement Team. The procurement functions of the various teams are
centralized with the Procurement Team. The GCSC’s staff is located in Chicago,
Illinois; Hammond, Indiana; and South Bend, Indiana.


Objectives, Scope and Methodology

The primary objectives of the audit were to determine the following:

(1)   Did the GCSC make procurements that were prudent and in accordance with
      laws, regulations, and established policy and controls?

(2)   Did the GCSC effectively perform contract administration duties and assure that
      the quality and quantity of goods and services received were what the
      Government ordered and paid for?

To accomplish the audit objectives, we:




                                            2
   1. Reviewed the applicable procurement laws and regulations and GSA guidance
      on the use of the GSA credit card.

   2. Reviewed two studies for restroom modernization at the John C. Kluczynski
      Federal Building. The studies were the Teng and Associates study dated
      February 20, 2003 and the Daniel P. Coffey & Associates, LTD. study dated
      October 30, 2006.

   3. Reviewed the Price Waterhouse Coopers Independent Auditors Report for fiscal
      years 2005 and 2006.

   4. Reviewed six operation and maintenance service contracts for various federally
      owned buildings, two elevator maintenance service contracts, and six janitorial
      service contracts. We also reviewed the implementation of 14 quality control
      plans and 14 surveillance plans associated with these contracts.

   5. Reviewed 35 delivery/purchase orders placed against operation and
      maintenance (O&M) contracts at four federal buildings valued at $695,130. The
      review included discussions with contractor and subcontractor representatives as
      well as GCSC personnel.

   6. Reviewed 28 repair and alteration procurements totaling $ 1.3 million. The
      sample included 26 Reimbursable Work Authorizations (RWA’s) and two
      Intrabudget Activity Authorizations (IBAA’s).

   7. Reviewed RWA summary registers and selected for review 12 RWA’s valued at
      $995,705 that did not show current activity.

   8. Reviewed security clearance information for 224 contract employees employed
      under various janitorial, mechanical or elevator contracts.

   9. Made onsite inspections of the janitorial work performed at three federal
      buildings, and the O&M work performed at three federal buildings.

   10. Reviewed credit card transactions totaling $174,745 for the period March 31,
       2004 to March 17, 2006.

   11. Discussed the solicitation of a janitorial contract with nine contractors who
       submitted bids in response to the solicitation.

   12. Discussed contract procurement and contract administration polices with GCSC
       personnel.

The audit was performed in accordance with generally accepted Government auditing
standards.




                                          3
                                   RESULTS OF AUDIT

Brief

Our review showed a significant improvement in quality control plans, quality assurance
surveillance plans, and security clearances relative to our prior audits of other PBS field
activities in the Great Lakes Region. However, the Greater Chicagoland Service Center
(GCSC) did not always effectively exercise prudence and sound business judgment and
adhere to applicable laws, regulations and established policy and procedures when
making procurements. The GCSC also did not effectively perform certain contract
administration duties which resulted in additional costs to the Government. In some cases,
effective internal management controls were absent or poorly implemented.


Findings and Recommendations

Finding 1 – Additional Procurement Controls Needed

Our audit identified improper procurement practices that did not fully comply with
procurement laws and regulations. We identified the misuse of contract vehicles, sole
source procurements and brand name procurements with no justification, split
procurement, inadequate use of Federal Supply Service contracts, diversion of contract
employees, improper use of budget activity 61 funds, lack of bona fide need, and
inadequate file documentation.          This resulted in excessive and unnecessary
expenditures. The procurements also violated various laws and regulations.          The
factors contributing to these problems were the incorrect interpretation of procurement
regulations and ineffective management controls. Two procurements, in particular,
illustrated the problems we identified.

Misuse of Contract Vehicle. On September 15, 2006, the GCSC placed two delivery
orders for touch-less Toto brand faucets and toilet/urinal valves. Order GSP0506SI1138
provided $94,860 for the purchase and installation of 250 Eco power closet flush valves
and 175 urinal valves. Order GSP0506SI1139 provided $94,737 for the purchase and
installation of 255 Eco power faucets and cover plates. The GCSC awarded both orders
to the existing O&M contractor for installation in the John C. Kluczynski Federal Building
(JCK).

Under the terms of its contract, the O&M contractor is responsible for maintenance repairs
which are defined as “unscheduled work required to prevent a breakdown of a piece of
equipment or system or put it back in service after a breakdown or failure”. Section
C7D(2) of the contract (Additional Services) provides for the purchase of materials and
parts needed for repairs and replacements. However, the contract limits the scope of
repairs that the contractor is required to perform and requires it to absorb the initial $2,000
of repair costs.




                                              4
The contract requires that “The contractor is to provide all necessary maintenance repairs
where the cost of labor, material and parts is expected to be $2,000 or less as part of the
basic service provided under this contract”. The contract provides for a second tier of
repair services ranging from $2,000 to $10,000 that are to be performed by the contractor.
It states that “Building equipment repairs where the cost of labor, materials and parts is
expected between $2,000 and $10,000 will be accomplished at the discretion of the COR.
The contractor will be responsible for the first $2,000 for each individual job in this
category”. Repairs that exceed the $10,000 threshold are defined as major repairs and do
not fall within the scope of the O&M contract.

Order GSP0506SI1138 for $94,860 and order GSP0506SI1139 for $94,737 were outside
the scope of the O&M contract and, therefore, an inappropriate procurement vehicle to use
for the placement of the two orders.

GCSC representatives told us that it makes good business sense to go with the
incumbent contractor because it has knowledge of the building and can do the job
faster. They further explained that this work is interrelated with the O&M contractor’s
every day work and their security clearances give them easier access to the building.

See Appendix C for additional orders for Toto equipment (GSP0507SF0027 and
GSP0507SY0037) procured through another O&M contractor as well as other orders that
misused the contract vehicle.

Sole Source Procurement. FAR 6.101 and 13.104 require contracting officers to promote
competition to the maximum extent practicable in soliciting and awarding contracts.

As a means of promoting competition FAR 5.101(a)(1) requires contracting officers to
disseminate information on proposed contract actions expected to exceed $25,000 by
“synopsizing in the GPE” (Government-wide Point of Entry). The Toto orders exceeded
the $25,000 threshold, however, the GCSC did not publicize the contract actions at Fed
BizOpps.gov as required.

See Appendix C for additional examples of orders that violated the competition
requirements and utilized sole source procurement.

Brand Name not Justified. The GCSC purchase orders directed the O&M contractor to
purchase the brand name “Toto” and also specified the model numbers of the Toto flush
valves and faucets that were to be purchased. The GCSC selected the Toto products
without consideration of other brand name products. The purchase of a specific brand
name requires justification and approval. FAR 6.302-1(c) states that “an acquisition that
uses a brand name description or other purchase description to specify a particular brand
name, product, or feature of a product, peculiar to one manufacturer does not provide for
full and open competition regardless of the number of sources solicited. It shall be justified
and approved in accordance with FAR 6.303 and 6.304”. The GCSC did not prepare the
required justification. The preference given to Toto products did not meet any of the




                                              5
requirements of FAR 6.302 which establishes the circumstances that permit contracting
without competition or FAR 13.104 (a) which states that “The contracting officer must not-

   (1) Solicit quotations based on personal preference; or
   (2) Restrict solicitation to suppliers of well-known and widely distributed makes or
       brands.”

The GCSC representatives stated that the Toto products have an internal battery that is
recharged by water pressure and does not have to be replaced every one to three
years. They further explained that the batteries will last 20 years and this is what makes
them unique from other water saving equipment. We found no evidence that the GCSC
could support its contention that only Toto products were the best value for the taxpayer
or that the GCSC had any basis for their assessment of the Toto product capabilities.
Specifications for the Toto products claim a battery life of up to 10 years; however,
Toto’s warranty covers only three years on all component parts.

See Appendix C for additional orders for Toto equipment (GSP0507SF0027 and
GSP0507SY0037) which were procured without brand name justification.

Split Procurement. The GCSC prepared two orders for the Toto equipment. One order
provided for the purchase and installation of flush valves at a cost of $94,860, and the
other order was for the purchase and installation of faucets at a cost of $94,737. The
separation of the flush valves and faucets into two orders constitutes a split procurement
for the following reasons:

   •   The orders were both awarded September 15, 2006 by the same contracting
       officer.
   •   Both orders were for Toto equipment and were purchased through the O&M
       contractor from a Toto distributor.
   •   Both orders were for one project involving the purchase and installation of Toto
       equipment in the washrooms of the JCK Building.
   •   The Toto distributor provided the GCSC and the O&M contractor with a single price
       quotation for the project.

By splitting the procurement, the value of each order was kept below the $100,000
Simplified Acquisition Procedure limit. Splitting the procurement avoided the full and open
competition requirements of FAR 6.1, the acquisition planning requirements of FAR 7.1
and resulted in the utilization of the less formal simplified acquisition procedures. The
procurement files for the Toto orders showed that there was no statement of work, sole
source justification, justification for splitting the work up, or price support (Government
estimate) for the orders. All of which would have been required if the project was procured
in its entirety.

Splitting a single known or reasonably anticipated agency need is generally prohibited
unless there is a documented, specific, contemporaneous legal justification for doing so
and is a violation of the Competition in Contracting Act, Public Law 98-369, which requires


                                            6
that the Government offer full and open competition for its procurements other than those
not exceeding the simplified acquisition threshold. GSA Directive CPO**9751.11 further
reinforces the importance and seriousness of improper procurement actions.

GCSC representatives disagreed that the procurement was split and stated that they
considered the two orders as completely separate procurements of two different items
(valves and faucets). We found no evidence to support this contention. The
faucets/valves were both installed in the restrooms in the JCK building as part of one
project.

FSS Contracts not Utilized. As previously discussed, the equipment was purchased by the
O&M contractor from an independent supplier at the direction of the GCSC. The purchase
was based on a price quotation of $186,210 issued by the supplier to an employee of the
GCSC. In order for the supplier to extend this quotation, it requested and received a price
from Toto Inc. We reviewed the quotation provided to the supplier. The quote was for $2
million worth of equipment. The name of the project per the job quotation sheet furnished
by Toto Inc. was entitled “Dirksen Federal Building, Chicago, IL”. The model numbers
shown on the $2 million quote included faucets and flush valves used in the JCK project,
but the quantities shown on the quote were significantly larger. The Toto price quotation
included additional items that were not procured such as porcelain toilets and urinals, an
indication that more GCSC orders may be in the pipeline.

The O&M contractor marked up both of the orders by XXXXXX percent for overhead
and another XXXXXX percent for profit increasing the cost of the orders by XXXXXX
and XXXXXX respectively. The mark ups totaled XXXXXX.

Other distributors of touch-less faucets and valves had Federal Supply Service (FSS)
contracts. They were not notified of the need and given the opportunity to submit price
quotations. One firm told us that if they had been requested to bid on the $ 2 million order,
they too would have requested competitive pricing from Toto. The GCSC gave
preferential treatment to the O&M contractor and the supplier rather than utilize the
Federal Supply Schedule contractors that FAR 8.002 describes as priority Government
supply sources.

Additional orders (GSP0507SF00271 and GSP0507SY0037) were issued by the GCSC to
O&M contractors to acquire Toto products. No other manufacturers and installers were
considered other than the O&M contractors. These orders are shown in Appendix C.
Additional orders for Toto equipment were in process and not completed at this writing.
These orders are for the Dirksen, Metcalfe, Immigration and Post Office Buildings.

GCSC representatives stated that the prices of the Toto equipment were better prices
than could have been obtained from FSS contracts. Since no other vendors were
considered, this contention has no basis. GCSC personnel also stated that they were
not purchasing $2 million of Toto equipment, and further stated that the $2 million
quotation from Toto to their distributor was erroneous and not solicited by employees of
1
    An incomplete sole source justification was prepared for order GSP0507SF0027.


                                                   7
the GCSC. This contention may also be incorrect because orders were still ongoing.
To date we have documented $327,248 in orders.           Representatives of Toto also
contradicted the GCSC representatives by stating that their quote to their distributor was
a legitimate quote for Federal Buildings in downtown Chicago.

Diversion of Contract Employees. The two orders required the purchase and installation of
the Toto equipment by the O&M contractor. The contractor proposed labor and materials
as one line item and overhead as a separate line item for each of the orders. Our review
disclosed that the line item labor and material costs only included the costs of the
materials and markup on each of the orders. For example, the contractor’s proposal for
order GSP0506SI1138 showed the following line items:

                             Labor Costs and Materials $79,050
                             XXXXXXXXXXXXXXXXXXXXXXXXXXXX
                             XXXXXXXXXXXXXXXXXXXXXXXXXXXX
                             Total Price               $94,860

The contractor and GCSC personnel told us that the contractor was performing the
installation work on a “time available basis”. We received conflicting statements from both
concerning the labor costs for installation. We were told:

   •   The Toto orders did not include installation costs.
   •   The O&M contractor was compensated for its installation costs through the
       markups shown on each order.
   •   The O&M contractor performed the installation of the Toto equipment for free.

Based on our review, the O&M contractor received XXXXXX in overhead and profit for
acting as the agent of the GCSC on the Toto orders, an amount that would easily cover
the labor cost of installation. The purchase order obligated the contractor to install the Toto
equipment. The O&M contractor installed the equipment during regular working hours.

The diversion of personnel from their O&M contract work may have had a negative impact
on building maintenance based on our review of GSA inspection reports. We reviewed the
inspection reports performed by the COR during the period of July 2006 to November
2006 and found that the O&M contractor was performing poorly during this period because
it was not completing all of the work required by its contract.

The GCSC representatives stated that the O&M contractor made quality control
changes in response to the inspection reports, and that building maintenance did not
suffer by the diversion of personnel to the Toto project. What is clear is that the Toto
products were installed by the O&M contractor during normal hours and received
$31,599 in markup above the cost of the Toto products it furnished and installed.

Appendix C shows additional orders of Toto equipment (GSP0507SF0027 and
GSP0507SY0037) which were installed at 536 Clark and 610 Canal.




                                              8
Use of Funds. Both of the orders that were awarded on September 15, 2006 used budget
activity (BA 61) funds that are used to fund building operations.         CFP P 4240.1,
Accounting Classification Handbook, provides that BA 54 funds are to be used to fund
repair and alteration (R&A) projects that are not part of a line item. These R&A projects
include initial space alterations, repairs, remodeling, improving, or making other related
changes to public buildings. The Handbook further states that R&A non-line item projects
have an estimated construction cost of between $10,000 and the annual prospectus
limitation. Minor repairs with estimated construction costs under $10,000 are funded by
BA 61, Real Property Operations.

The two orders exceeded the $10,000 budget activity (BA) 61 threshold for repairs and
alterations. The touch-less Toto faucets/valves can only be described as improvements
since they replaced existing manually operated equipment. The BA 61 funds were
misused in this procurement. The appropriate source of funds was BA 54 or, perhaps BA
55.

BA 55 funds energy conservation projects and requires the submission of an energy
savings analysis to the Energy Center of Expertise. A study furnished to us by PBS
showed a payback of 26.4 years for the touch less faucets and valves. We were told that
a 10 year payback is typically expected for approval of BA 55 funding. The GCSC did not
request BA 55 funding.

The GCSC personnel told us that the use of BA 61 funding was appropriate. They told
us that these orders were only for the purchase of materials and therefore not subject to
the BA 61 threshold of $10,000 because the threshold only applies to the purchase of
services and repairs. They stated that they purchased materials only but not labor. No
explanation of the selection of an O&M contractor to act as the source of supply for
plumbing components was provided. Also, the faucets and valves were not purchased
for spot repairs. They were purchased to replace most of the faucets and flush valves
in the JCK building. The orders clearly stated that the Toto equipment was to be
purchased and installed by the O&M contractor for JCK. The replacement of the valves
and faucets in the JCK building is a building improvement and clearly meets the
requirement for using BA 54 or BA 55 funding.

Bona Fide Need. O&M contracts are funded by BA61. BA61 funds are issued for, and
expire at the end of a fiscal year. BA54 is a no year budget activity and funds repair
and alteration projects between $10,000 and the annual prospectus limit. Since the
work was not to be delivered until January of the following fiscal year, or about four
months after the orders were placed, there was no bona fide need for the work during
the year the BA 61 funds expired. Had BA 54 funds been used, bona fide need would
not have been an issue.

Existing Prospectus Project. Our review of the Inventory Reporting Information System
(IRIS) disclosed that the washrooms in the JCK Building were scheduled for
design/renovation in 2008/2009 at a cost of $12.4 million. Since the prospectus project will
commence next year and involves the replacement of all toilets, urinals, and faucets, we



                                             9
question the bona fide need for this equipment. As previously mentioned the O&M
contract requires the contractor to perform the initial cost of each repair up to $2,000 at no
cost to the Government. Consequently, any leaky faucets and valves should have been
repaired on a case- by -case basis without additional expense to the Government, thereby
avoiding the costs incurred for faucet/valve replacement.

The GCSC told us that the prospectus project of $12.4 million will not materialize in the
year 2009 and they estimated that the funding would not be available for approximately
eight years. No support for this contention was furnished to us nor does it explain why
the project to replace the faucets and valves was undertaken.

See Appendix C for additional orders of Toto equipment (GSP0507SF0027 and
GSP0507SY0037) which used BA 61 funds.

Recommendation

We recommend that the Regional Administrator:

1A. Develop and implement a system of internal controls to assure that GCSC
    employees perform their procurement responsibilities in such a manner as to
    assure that procurement laws and regulations are followed and proper funds used.

Management Response

The Regional Administrator agreed with the recommendation; however, he expressed
concern about certain issues discussed in the finding and contested the basic premise
of the audit finding (i.e., the purchase and installation of brand-name, touch-less faucets
and toilet/urinal valves valued at over $189,000 should have been competitively
awarded rather than awarded on a sole-source basis to an O&M contractor). Please
see page 15 of the audit report for a discussion of this issue. Please see Appendix H
for a copy of the Regional Administrator’s response to the draft audit report.


Finding 2 – Contract Administration Problems

We identified several contract administration problems. Subcontractor labor rates
exceeded the rates specified in the contract. The provisions of the Davis Bacon Act
were not followed. The contractor was paid for the time value of capital without
justification or explanation.  These factors resulted in additional costs to the
Government. Ineffective management controls were the cause of the problems.

Subcontractor Labor Rates Exceed the Specified Contract Rates. The O&M contract for
the buildings at 536 S. Clark, 450 S. Federal, 610 Canal and 701 Clinton requires the
contractor to perform all maintenance repairs that are not expected to exceed $10,000.
The contract also states “The Contractor shall compute the labor costs using the offer unit




                                             10
hourly rates for maintenance repair and architectural and structural maintenance and
repair services specified in the offer sheet.” The contract rate was $46.75 per hour.

The contract further states “The Contractor’s expenses for overhead, G&A, and profit are
already included in this labor rate. This rate is to be utilized in determining costs for all
repair work. Thus, no separate allowances for travel time, parking, overhead, G&A, or
profit can be applied to individual repairs/replacements”. In Appendix D we show several
orders whereby the GCSC granted rates as high as $112 per hour, as well as overhead.
The labor rates awarded were outside the scope of the contract and most of the orders
shown in Appendix D exceed $2,500. However, the GCSC did not solicit quotes from at
least three sources in accordance with FAR 13.104. One of the orders exceeded $25,000
and was not synopsized in accordance with FAR 13.105. This order is also discussed in
Appendix C to this report.

Davis Bacon Act. The Davis Bacon Act applies to construction contracts costing in excess
of $2,000 and requires the contractor to pay minimum wages and fringe benefits as
determined by the Secretary of Labor to be prevailing in the area where the work is to be
performed. In accordance with the Davis Bacon Act, FAR 52.222-8 requires the contractor
to submit a copy of weekly payrolls to the contracting officer for each week of contract
performance in order to assure conformance to the prevailing wage rate. The FAR also
requires each payroll must be accompanied by a “Statement of Compliance” signed by the
contractor and certifying that the contractor complied with the payroll provisions of the
Davis Bacon Act. We selected the following orders for a review in order to best determine
if the provisions of the Davis Bacon Act were enforced. We requested GCSC
representatives to furnish the Davis Bacon payroll documentation on these orders
however, they were unable to do so.

                                                             Order
                              Order                Date     Amount
                        GS-P-05-06-SI-1085        6/20/06   $24,965
                        GS-P-05-06-SI-1137        9/15/06    19,028
                        GS-P-05-06-SI-1130        9/11/06    18,500
                        GS-P-05-06-SI-1090        6/30/06    99,675


The two orders for Toto equipment, discussed earlier provided for repair and alteration
work, should have utilized BA 54 funds and were subject to the Davis Bacon Act.
Certified payrolls were not provided. The O&M contract mechanics were paid an hourly
wage rate of $30.20 in accordance with the union agreement for operating engineers. The
hourly rate was below the prevailing wage rate of $37.10 per hour for plumbers.

Time Value of Capital. As shown in Appendix C, we reviewed three orders that paid the
contractor for the time value of capital. The total value of the orders was $180,499 and
the overpayment amounted to $6,076. No logical explanation for allowing such payments
to be made was offered by the GCSC personnel. The contract does not allow for such
payments.


                                             11
Recommendation

We recommend that the Great Lakes Region PBS:

2A. Establish and implement a system of internal controls to assure that GCSC
    employees perform their contract administration/management responsibilities in
    accordance with contract specifications and laws/regulations and recover any
    improper payments to contractors.

Management Response

The Regional Administrator agreed with the recommendation. Please see Appendix H for
a copy of the Regional Administrator’s response to the draft audit report.



Finding 3 – Reimbursable Work Authorization Controls

The audit sample included 12 RWA’s that were obligated in fiscal years 2001 through
2005. The funds were not spent and the balances were not returned to the customer
agencies. RWA files were not current or closed out in a timely manner. This matter was
previously listed as a material weakness in the Price Waterhouse Coopers (PWC)
Independent Auditors Report for fiscal year 2005 and remains an ongoing problem. The
problem occurred as a result of weak and /or indifferent management controls.

RWA’s With No Costs Incurred. The sample included RWA’s that showed very little
activity, i.e. RWA’s that had start dates in fiscal years 2001 through 2005. Appendix E
lists RWA’s that had start dates ranging from September 12, 2002 to September 21, 2005,
and had authorized funds ranging from $3,778 to $271,310. As of November 15, 2006
(the date of our audit test), we determined that funds had not been obligated against these
RWA’s. The GCSC did not close the RWAs and return the funds to the customer
agencies making the bona fide need for these projects questionable. As shown in
Appendix E, we requested the GCSC to provide five of the files to us for our review. They
were never provided.

RWA’s With Costs Incurred. Appendix F shows additional RWA’s that were started in fiscal
years 2002 through 2004. As of November 15, 2006, they were not closed out and had
outstanding balances ranging from $8,536 to $43,617. The RWA’s represent delivered
work where the GCSC did not return the unused funds to the customer agency. We
requested the GCSC to provide the four files shown in Appendix F for our review, but they
were never provided.

As shown in Appendix G, RWA’s and some IBAA’s were not closed out in a timely
manner. We reviewed 26 RWA’s and two IBAA’s as shown in Appendix G. We selected



                                            12
projects that had completion dates between January 13, 2005 and April 11, 2006. Our
review disclosed that 11 of the 28 files were missing and could not be located. The review
also disclosed that 23 of the 28 files were closed out one to five years after their final
billing.

The PWC Independent Auditors Report for FY 2005 addressed the issues and classified
similar transactions as material weaknesses. The report stated that “The types of
underlying transaction-level errors observed by PwC during our interim control tests
included instances of both overstatements and understatements of undelivered orders,
delivered orders, and unfilled customer orders”. The report further stated that “GSA’s
failure to return spending authority to customer agencies for expired obligations and where
bona fide needs for unfilled customer orders ceased to exist due to management’s
insufficient monitoring controls over budgetary accounting”. Based on our audit tests, the
problem has not been corrected.

Recommendation

We recommend that the Regional Administrator:

3A. Develop and implement an effective system of internal controls for managing
    RWA’s and IBAA’s in order to assure that they are properly recorded, filed, and
    closed out in a timely manner.

Management Response

The Regional Administrator agreed with the recommendation. Please see Appendix H
for a copy of the Regional Administrator’s response to the draft audit report.


Finding 4 – Inadequate Disclosure Provided in Contract Solicitation

We reviewed a solicitation for janitorial services that provided incomplete disclosures
to the prospective bidders. The incumbent contractor for the building was able to take
advantage of the incomplete disclosures and submit a bid that was 25 percent below its
current contract price. As a result, the incumbent contractor was the low bidder for the
new contract and was awarded the contract. After the award of the new contract, the
contractor was then granted a 36 percent contract price increase of $337,853 per year
through a contract amendment. The amendment resulted in a price that approximated
the price of the contractor’s expiring contract. The inadequate disclosures in the
solicitation and poor internal controls affected the fairness and integrity of the
procurement.

Contract Amendment After Award. The janitorial contractor had a $1,247,993 annual
contract price for the Metcalfe Building that was expiring on July 31, 2004. Due to the
pending expiration of this contract, PBS solicited for janitorial services on February 6,
2004 for a five year period commencing August 1, 2004. Fifteen contractors responded



                                            13
to the solicitation and the incumbent was the low bidder. PBS awarded the contract to
the incumbent contractor, on June 7, 2004 at a base year price of $928,054. The new
contract price was $319,939 below the expiring contract price of $1,247,993.

On July 27, 2004, five days before the start of the new contract, the contractor entered
into a collective bargaining agreement (CBA) with the Laborers’ International Union of
North America. On July 28, 2004, it requested that PBS include the newly negotiated
CBA rates in the new contract. On August 17, 2004, the contracting officer signed
change order PO01 increasing the contract price by $337,853 annually raising the
contract cost from $928,054 to $1,265,907. The contract increase was retroactive to
the contract start date, August 1, 2004. The $337,853 annual increase resulted in
additional costs to GSA of $1.6 million over the original bid for the five year contract
period.

Collective Bargaining Agreement. The contractor, under its expiring contract at the
Metcalfe Building, had a CBA agreement. On March 30, 2003, approximately one year
before PBS solicited for a new contract, the contractor did not renew its CBA. Although
the CBA had expired, PBS continued to pay the CBA rate of $14.78 per hour. Since a
valid CBA agreement was not in place at the time of the solicitation, PBS solicited using
a lower DOL wage determination.

PBS personnel told us that they approved the higher CBA wage rates and fringe
benefits after the award of the new contract because union rates were being paid under
the expiring janitorial contract.  Their decision was based on FAR 22.1002-3, Wage
determination based on collective bargaining agreements, paragraph (a) which states
that successor contractors performing on contracts in excess of $2,500 for substantially
the same services performed in the same locality must pay wages and fringe benefits at
least equal to those contained in any bona fide CBA entered into under the predecessor
contract. They concluded that the CBA wage rates take precedence over the DOL wage
determination.

We agree with the position that the CBA rates have precedence. However, based on
FAR 22.1002-3, PBS should have included the CBA rates in the solicitation rather than
the DOL wage determination for the following reasons:

   1. The CBA rate of $14.78 per hour plus fringe benefits was in effect for the contract
      at the Metcalfe Building even though the CBA agreement had expired prior to
      the solicitation.

   2. The use of the CBA rate in the solicitation would have resulted in bids that more
      accurately reflected the final contract price thereby making it unnecessary for the
      awardee to request a contract modification.

   3. Unsuccessful bidders told us they were unaware of the CBA rates in effect at the
      Metcalfe Building, and, therefore, unaware that they could offer the wage
      determination rate of $10.82 per hour in their proposal and then change the rate



                                           14
      to the adjusted CBA rate of $15.23 per hour prior to the contract start date.
      Consequently, the bidders expected to perform the contract services at the
      proposed rate of $10.82 per hour.

   4. The successful bid was 50 percent below the Government cost estimate since
      the estimate was based on the CBA rates of the expiring contract rather than the
      wage determination rates used in the solicitation. The rates caused further
      confusion when a PBS reviewing official questioned the contract award at
      $928,054. In regard to the price negotiation memorandum the official stated that
      “There seems to be no discussion regarding the GCE. While you received
      competitive pricing, the total evaluated price of the GCE is almost double the
      amount of the proposed awardee. Did you verify the GCE, and if yes, are you
      confident that the proposed awardee has taken all the requirements into
      consideration. Again, although competitive pricing was received the discrepancy
      with the GCE should set off alarm bells”. The contracting officer responded that
      the cost estimate was exorbitant and that the contractor was successfully
      operating under the current contract and was aware of all contract requirements.
      No amendment to the solicitation was issued informing all bidders of the CBA.

Recommendation

We recommend that the Great Lakes Region PBS:

4A. Develop and implement an effective system of internal review to assure
    adequate disclosures are made in contract solicitations in order to assure the
    integrity of the procurement process.

Management Response

The Regional Administrator agreed with the recommendation. Please see Appendix H
for a copy of the Regional Administrator’s response to the draft audit report.


Discussion of Management Response and Audit Analysis Regarding Finding 1

Although the Regional Administrator agreed with Recommendation No. 1, he expressed
concern about the issues discussed in Finding 1, and requested certain points be
revised or deleted from the report. Specifically, PBS disagreed with the basic premise
of Finding 1 – namely, that the purchase and installation of brand-name, touch-less
faucets and toilet/urinal valves valued at over $189,000 should have been competitively
awarded rather than awarded on a sole-source basis to an O&M contractor. PBS took
the position that the O&M contract was not misused when plumbing faucets and flush
valves were procured from, and installed by the O&M contractor and funded by BA61.

PBS contends that plumbing systems is part of the O&M contract and we agree.
However, the contract is a maintenance contract not a contract for furnishing and



                                          15
installing automatic faucets and valves which were improvements over the conventional
manually operated faucets and valves that they replaced. Therefore, in our opinion, the
project clearly met the requirements for funding by BA54. Once the faucets and valves
were installed, assuming that they require the repeated adjustments as stated in the
Regional Administrator’s response, the O&M contractor should treat those adjustments
as service call time.

In our opinion, the additional services clause does not apply in this situation since the
furnishing of new high tech faucets and valves should not have been ordered through a
service contract funded by BA61. We, therefore, re-affirm our position, since the
wholesale provision and installation of new faucets and valves in excess of $10,000 do
not meet the definition of the term maintenance as defined by current PBS directives.

Since only the O&M contractor was given the opportunity to bid on the job, it clearly
meets the definition of a sole source procurement. The project was also a split
procurement because the furnishing and installation of the faucets and valves was one
project. Known requirements were divided resulting in costs kept below the simplified
acquisition threshold.

No valid justification for specifying a brand name could be prepared. Many firms
manufacture automatic faucets and several manufacture piston type automatic flush
valves that have equal to, or better, warranties than the Toto products. As the report
states, the faucets and valves were ordered on the same date from the same source
with January 2007 delivery dates. It was all plumbing work for one building.

The report clearly states that the orders placed required purchase and installation of
Toto equipment by the O&M contractor. No separate orders for installation were issued
to any contractor. The faucets and valves did not install themselves. The report does
state that the overhead and profit paid the contractor would have covered the cost of
labor. The installation was performed by the O&M contractor’s employees.

The provision and installation of new touch less automatic faucets and valves exceeded
$10,000 in cost and, therefore, met the definition of a BA 54 project. Use of the O&M
contract for provision of the faucets and valves was, therefore, outside the scope of the
contract and a misuse of BA61 funds.

The Regional Administrator’s response notes that the most current data in IRIS now has
an FY 2010 design date with construction to begin in FY 2012. He further states that
nearly all of the faucets were in dire need of replacement. No explanation of the logic to
have the Government bear the entire cost burden (as opposed to the contractor) is
provided. The poor condition of the faucets, most likely occurred over many years and
ineffective contract administration may have been a contributing factor. Any defective
faucet or valve should have been repaired or replaced by the contractor in accordance
with the O&M contract on a case by case basis up to the $2000 repair limit in the O&M
contract as stated in the report.




                                           16
No explanation of the decision to select automatic faucets and valves instead of
conventional faucets was apparent from the files or interviews. The idea may have
come from customer satisfaction surveys we obtained from 2001 and 2004. We found
one out of 319 written comments in the 2004 survey that suggested installation of
“motion faucets like they have at the airports.” The 2007 survey which was conducted
after the new plumbing equipment was installed, had 23 comments that indicated
dissatisfaction with new equipment or continuing problems with the functioning of the
plumbing in the Kluczynski Building.


Other Issues

Quality Controls Over Service Contracts

Performance based service contracts require the use of measurable performance
standards in order for the Government to assess contractor performance and determine
whether contract results and objectives are being attained. In order to assure that the
contract performance standards are being achieved, agencies are required to develop
quality assurance surveillance plans (QASPs). The contractor is also required to
develop a quality control plan (QCP) that establishes a method of monitoring and
inspecting the work to ensure that the quality standards of the contract are met.

 We reviewed janitorial contracts for six buildings, maintenance contracts for six
buildings and elevator contracts for two buildings. We determined that the QASPs and
QCPs were implemented at all sites except for the QASP for the O&M contract at 610
Canal. Further detail is provided in Appendix A. The plan should be fully implemented
in order to assure that the quality control standards for these buildings are maintained.

Security Clearances. PBS has an established policy that all contract employees must
pass a background suitability check in order to work in a GSA-controlled facility. Of the
224 personnel security clearances included in our review, we found that 98 percent of
the employees were properly cleared. The results of the review are shown in Appendix
B. The buildings in question should be reviewed in order to assure 100 percent
compliance with security requirements.

Our review showed a significant improvement in the provision of QCPs, QASPs and the
security clearances relative to our earlier audits of the Great Lakes Region.

Internal Controls

We assessed the internal controls relevant to certain aspects of the GCSC operations. We
concluded that the internal controls were in effect for the implementation of quality control
plans, quality assurance surveillance plans as well as employee security clearance
procedures. However, we found that controls for contract procurement and certain
aspects of contract administration were often ineffective and provided little assurance that
Government assets were reasonably protected.



                                             17
                                                                                      APPENDIX A

                                       AUDIT OF THE
                           GREATER CHICAGOLAND SERVICE CENTER
                                PUBLIC BUILDINGS SERVICE
                                   GREAT LAKES REGION
                             REPORT NUMBER A060125/P/5/R08004

                                REVIEW OF SERVICE CONTRACTS


                                                     Contract                    QCP
         Building                Contractor          Number     Type   QCP   Implemented   QASP   Notes
                                                                                                    1

536 Clark Chgo, IL                Anixter            GAC0022     J     Yes      Yes        Yes

610 Canal                         Anixter            GAC0022     J     Yes      Yes        Yes
Chgo, IL

77 W Jackson                       TTCC              GAC0053     J     Yes      Yes        Yes
Chgo, IL


219 S DearbornChgo, IL         Ada McKinley          GAC0166     J     Yes      Yes        Yes

230 S Dearborn                   Blackstone          GAC0043     J     Yes      Yes        Yes
Chgo, IL

Hammond Ct House                   TTCC              GAC0049     J     Yes      Yes        Yes
Hammond, IN.
536 Clark Chgo, IL         Northern Mgmt Services    GAC0126     M     Yes      Yes        Yes


610 Canal Chgo, IL         Northern Mgmt Services    GAC0126     M     Yes      Yes         No     2


77 W Jackson Chgo, IL     Wilson 5 Service Company   GAC0109     M     Yes      Yes        Yes



219 S. DearbornChgo, IL             CSI              SIC0048     M     Yes       No        Yes


230 S. DearbornChgo, IL        Urban Meridian        GAC0065     M     Yes      Yes        Yes




                                                     18
                                                                                  APPENDIX A


                               REVIEW OF SERVICE CONTRACTS
                                         (Continued)

                                                 Contract                   QCP
          Building               Contractor      Number      Type   QCP Implemented QASP    Notes
Hammond Ct House
Hammond, IN                     Urban Meridian   GAC0061      M     Yes     Yes       Yes

77 W Jackson                      Kone Inc.         SI1026    E     Yes     Yes       Yes
Chgo, IL

Hammond Ct House                  Kone Inc       GAC0013      E     Yes     Yes       Yes
Hammond, IN




      Key: Type

      J        Janitorial Contract
      M        Operation and Maintenance Contract
      E        Elevator Contract



      Notes:

      1. “Yes” designates that the QASP was both available and implemented.

      2. A QASP was available, but it required the completion of inspection forms by GCSC
         personnel. The inspection forms were not completed so we consider the QASP as
         not fully implemented.




                                                 19
                                                           APPENDIX B

                             AUDIT OF
             THE GREATER CHICAGOLAND SERVICE CENTER
                     PUBLIC BUILDINGS SERVICE
                       GREAT LAKES REGION
                 REPORT NUMBER A060125/P/5/R08004

                      SECURITY CLEARANCES


                                     Number Of   Number    Percent
         Building         Service    Employees   Cleared   Cleared

230 S. Dearborn         Janitorial      49         49        100
230 S. Dearborn         Mechanical      16         16        100
77 W Jackson            Janitorial      22         22        100
77 W. Jackson           Mechanical       5          5        100
77 W. Jackson           Elevator         2          1         50
610 Canal               Mechanical       3         3         100
536 Clark               Mechanical       3          3        100
610 Canal               Janitorial      14         14        100
536 Clark               Janitorial      22         21         95
219 S. Dearborn         Mechanical      15         15        100
219 S. Dearborn         Janitorial      51         50         98
Hammond Court House     Mechanical       6          6        100
Hammond Court House     Janitorial      16         16        100

Totals                                  224        221        98




                                20
                                                                                   APPENDIX C

                                  AUDIT OF THE
                      GREATER CHICAGOLAND SERAVICE CENTER
                            PUBLIC BUILDINGS SERVICE
                               GREAT LAKES REGION
                        REPORT NUMBER A060125/P/5/R08004

                           REVIEW OF ADDITIONAL ORDERS

   Order Number         Date        Building      Contractor Contract Number      Amount    Notes

 GS-P-05-06-SI-1090    6/30/06    211 Clark St.         CSI      GS05P05SIC0048   $99,675    1

 GS-P-05-06-SI-1085    6/20/06        JCK               CSI      GS05P05SIC0048   33,784     2

 GS-P-05-06-SI-1137    9/15/06        JCK               CSI      GS05P05SIC0048   19,028     3

 GS-P-05-06-SI-1130    9/11/06        JCK               CSI      GS05P05SIC0048   47,040     4

 GS-P-05-07-SI-0043    12/28/06       JCK               CSI      GS05P05SIC0048   132,000    5

  GS05P06SIP3016       2/27/06        JCK              Althoff   GS05P06SIP3016   35,545     6

 GS-P-05-06-SF-1006    12/29/05   536 Clark St.    Northern      GS05P00GAC0126   26,915     7

 GS-P-05-07-SF-0027    6/27/07    536 Clark St.    Meridian      GS05P06SIC3028   66,761      8

 GS-P-05-07-SY-0037    6/28/07    610 Canal St.    Meridian      GS05P06SIC3028   70,890     9



Notes:

1. The GCSC placed this order with the O&M contractor for the clean up and repair of two
   existing dock platform lifts at 211 S. Clark St. The work was then subcontracted by the
   O&M contractor.
   • Misuse of Contract Vehicle. The order for $99,675 exceeded the scope of the O&M
       contractor’s contract and was an inappropriate vehicle for the procurement of this
       order.
   • Sole Source Procurement. The GCSC violated the competition requirements of
       FAR 5.101(a)(1) and FAR 13.104.




                                                  21
                                                                             APPENDIX C

                          REVIEW OF ADDITIONAL ORDERS
                                   (Continued)

   •   Procurement File Review. The O&M contractor subcontracted the work and
       marked up the subcontract work by XXXXXX percent (XXXXXX) for profit and
       XXXXXX percent (XXXXXX) for overhead. A detailed subcontractor proposal
       showing labor hours, labor rates and material costs was not available. A price
       reasonableness determination was also unavailable. We attempted to make a
       second review of this file, but the GCSC was unable to locate the file for the second
       review.
   •   Time Value of Capital. The order included $3,987 for the time value of capital. The
       GCSC could not provide an explanation for awarding this line item.

2. The GCSC placed this order with the O&M contractor for the repair of IRS computer
   room air conditioning units at the JCK Building. The work was then subcontracted by
   the O&M contractor.
   • Misuse of Contract Vehicle. The order which was originally placed for $24,965 and
       then amended to $33,784 exceeded the scope of the O&M contract and was an
       inappropriate vehicle for the procurement of this order.
   • Sole Source Procurement. The GCSC violated the competition requirements of
       FAR 5.101(a)(1) and FAR 13.104.
   • Procurement File Review. The O&M contractor subcontracted the work and
       marked it up by XXXXXX percent (XXXXXX) for profit and XXXXXX percent
       (XXXXXX) for overhead. A detailed subcontractor proposal showing labor hours,
       labor rates and material costs was not available. A price reasonableness
       determination was also unavailable.
   • Time Value of Capital. The order included $1,349 for the time value of capital. The
       GCSC could not provide an explanation for awarding this line item. A GCSC
       representative stated that the order would be amended.

3. The GCSC placed this order with the O&M contractor to replace, calibrate, test and
   reinstall steam safety pressure, reducing valves at various locations throughout the
   mechanical floors of the JCK. Building. The work was then subcontracted.
   • Misuse of Contract Vehicle. The order for $19,028 exceeded the scope of the O&M
       contract and was an inappropriate vehicle for the procurement of this order.
   • Sole Source Procurement. The GCSC violated the competition requirements of
       FAR 5.101(a)(2) and FAR 13.104. The procurement did not comply with the
       provisions of FAR 5.101(a)(2) which requires proposed contract actions expected
       to exceed $10,000 but not exceeding $25,000 to be displayed in a public place or
       by appropriate electronic means.
   • Procurement File Review. A price reasonableness determination was unavailable.




                                            22
                                                                                APPENDIX C

                           REVIEW OF ADDITIONAL ORDERS
                                    (Continued)


4. The GCSC placed this order with the O&M contractor to provide labor and materials for
   rebuilding an air compressor, install a new control system and replace pipes in the JCK
   Building. The work was then subcontracted.
   • Procurement File Review. The O&M contractor and another contractor responded
      with bids. The O&M contractor was the low bidder and was awarded the order for
      $18,500 on September 11, 2006. On December 21, 2006 the order was increased
      by $28,540 to $47,040.       A price reasonableness determination was unavailable
      despite the large cost increase.
   • Time Value of Capital. The order included $740 for the time value of capital. The
      GCSC could not provide an explanation for awarding this line item.

5. The GCSC placed this order for re-commissioning the building automation system at
   JCK with the O&M contractor. The O&M contractor subcontracted this work.
   • Misuse of Contract Vehicle. The order for $132,000 exceeded the scope of the
      O&M contract and was an inappropriate vehicle for the procurement of this order.
   • Sole Source Procurement. The GCSC violated the full and open competition
      requirements of FAR 6.1.

6. The GCSC placed this order for the installation of water leak sensing devices and
   control mechanisms in the JCK Building with an outside contractor.
   • Sole Source Procurement. The original order was for $24,795 and was then
      amended to $35,545. The GCSC violated the competition requirements of FAR
      5.101(a)(1) and FAR 13.104.
   • Procurement File Review. A detailed contractor proposal showing labor hours,
      labor rates and material costs was not available. A price reasonableness
      determination was also unavailable. The file contained a sole source justification
      but it did not contain sufficient detail. The justification stated that the contractor “is
      the only contractor with access to the buildings controls system and is capable of
      meeting the performance requirements of this contract.”

7. The GCSC placed this order for material and labor to install an overflow pipe at 536
   Clark St. The order was placed with the O&M contractor for the building.
   • Misuse of Contract Vehicle. The order for $26,915 exceeded the scope of the O&M
      contract and was an inappropriate vehicle for the procurement of this order.
   • Sole Source Procurement. The GCSC violated the competition requirements of
      FAR 5.101(a)(1) and FAR 13.104.




                                              23
                                                                            APPENDIX C

                          REVIEW OFADDITIONAL ORDERS
                                   (Continued)


8. The GCSC placed this order for the purchase and installation of Toto flush valves and
   faucets at 536 Clark St. The order was placed with the O&M contractor for the
   building. The O&M contractor then purchased the equipment through the Toto
   distributor and marked up the order by XXXXXX percent or XXXXXX for overhead.
   • Misuse of Contract Vehicle. The order for $66,761 exceeded the scope of the O&M
       contract and was an inappropriate vehicle for the procurement of this order.
   • Sole Source Procurement. The GCSC violated the competition requirements of
       FAR 5.101(a)(1) and FAR 13.104.
   • Misuse of Funds. The order was funded with BA 61 funding despite the fact that it
       involved repair and alteration work in excess of the $10,000 BA 61 repair threshold.
   • Brand Name not Justified. Toto flush valves and faucets were purchased from the
       Toto distributor without the brand name justification required by FAR 6.303 and
       6.304.

9. The GCSC placed this order for the purchase and installation of Toto flush valves and
   faucets at 610 Canal. The order was placed with the O&M contractor for the building.
   The O&M contractor then purchased the equipment through the Toto distributor and
   marked up the order by XXXXXX percent or XXXXXX for overhead.
   • Misuse of Contract Vehicle. The order for $70,890 exceeded the scope of the O&M
      contract and was an inappropriate vehicle for the procurement of this order.
   • Sole Source Procurement. The GCSC violated the competition requirements of
      FAR 5.101(a)(1) and FAR 13.104.
   • Misuse of Funds. The order was funded with BA 61 funding despite the fact that it
      involved repair and alteration work in excess of the $10,000 BA 61 repair threshold.
   • Brand Name not Justified. Toto flush valves and faucets were purchased from the
      Toto distributor without the written brand name justification required by FAR 6.303
      and 6.304.




                                            24
                                                                            APPENDIX D

                                   AUDIT OF THE
                       GREATER CHICAGOLAND SERVICE CENTER
                            PUBLIC BUILDINGS SERVICE
                               GREAT LAKES REGION
                         REPORT NUMBER A060125/P/5/R08004

                          SUBCONTRACTOR LABOR COSTS
                                   (See Note)


                                                    Order   Subcontractor
        Order Number        Date      Building     Amount    Wage Rate      Overhead

         P0506SF0004       12/6/05    536 Clark    $ 2860       $112        XXXXXX


         P0505SF0033       6/20/05   450 Federal    9775         61         XXXXXX


         5CS6-10-0003      9/1//05   610 Canal      1529         96         XXXXXX


        GSP0506SF1011      4/17/06    536 Clark     2958        112         XXXXXX


         5CS6-06-0102      6/26/06   610 Canal      2402         95         XXXXXX


        GSP0506SF1033      7/25/06   610 Canal      5184         96         XXXXXX


        GSP0506SF1006     12/29/05    536 Clark    26915         80         XXXXXX



Note:

The orders shown in the table were placed against Northern Management Services
Contract, GS05P00GAC0126. The contract provides for a labor rate of $46.75 per hour
which includes labor, overhead and profit. As shown in the table above the PMC
granted hourly labor rates up to $112 per hour.




                                           25
                                                                     APPENDIX E

                            AUDIT OF THE
                GREATER CHICAGOLAND SERVICE CENTER
                     PUBLIC BUILDINGS SERVICE
                        GREAT LAKES REGION
                  REPORT NUMBER A060125/P/5/R08004

         UNOBLIGATED RWA’S (UNFILLED CUSTOMER ORDERS)


RWA Number               Start Date               Amount             Notes
                                                  (Note 1)

   3444906               10/01/04                 $ 11,791             2
   2830401               09/26/01                   25,000             2
   2229517               09/21/05                   48,000             2
   3118245               12/30/02                   30,000             2
   3070969               08/31/04                    3,778
   3291175               09/24/04                 150,000
   3118371               09/23/03                 271,310              3
   3117628               09/12/02                   13,637             2

Notes:

1. As of 11/15/06 the date of our review, the RWA funds shown had not been
   obligated.

2. The RWA file was requested from the GCSC, but was not provided.

3. RWA 3118371 had a start date of 9/23/03 and a customer certification of bona
   fide need, but the certification was dated 8/23/06 which was approximately three
   years after the start date.        Consequently, the funds were available for
   approximately three years before the certification of bona fide need.




                                      26
                                                                    APPENDIX F


                           AUDIT OF THE
               GREATER CHICAGOLAND SERVICE CENTER
                    PUBLIC BUILDINGS SERVICE
                       GREAT LAKES REGION
                 REPORT NUMBER A060125/P/5/R08004

                RWA BALANCES ON DELIVERED ORDERS


             Start     Date of         RWA      Obligated   Remaining
 RWA         Date     Last Billing    Amount    Amount       Balance    Note
                                                             (Note 1)

2830773    08/22/02   09/25/04       $342,908   $299,291     $43,617     2
3118216    09/16/03   06/25/04         38,604     21,983       16,621    2
3291298    08/31/04   03/25/05         21,205    12,669        8,536     2
3118410    09/19/03   04/25/05         49,472    36,764       12,708     2




Notes:

1 As of 11/15/06 the date of our review, the RWA’s shown above had not been
  closed out and had the outstanding balances shown.

2. The RWA file was requested from the GCSC, but was not provided. We
   concluded that the files could not be located.




                                       27
                                                          APPENDIX G


                  AUDIT OF THE
      GREATER CHICAGOLAND SERVICE CENTER
           PUBLIC BUILDINGS SERVICE
              GREAT LAKES REGION
        REPORT NUMBER A060125/P/5/R08004

        RWA PROCUREMENT FILE DEFICIENCIES

                            Late       Missing
   Order No.   Amount      Closeout     File      Notes
                           (Note 1 )   (Note 2)

2830333        $ 16,740         X                  3
2830553           30,112        X                  4
3445086           21,558                            5
2616010           10,407        X                  6
N9291807          80,000        X         X        7
3444883           45,334        X                  8
3377594           15,245                  X        9
3377565           10,000                  X        10
2829849           25,204        X         X        11
2830074           28,452        X                  12
2830197          105,049        X                  13
2830265           22,441        X         X        14
2830605           25,054        X         X        15
3117602           22,846        X         X        16
2615516           60,566        X         X        17
2830443           24,447        X                  18
2830456           81,828        X                  19
2830731           21,048        X                  20
3117709          142,995        X                  21
3445248           68,424                           22
1529182           80,000        X         X        23
1529250           85,256        X         X        24
2615477           67,348                           25
2615545           47,000        X         X        26
2615804          100,000        X                  27
2830032           51,792        X                  28
3118229           14,769        X                  29
N9290633          28,000        X                  30




                                                          APPENDIX G


                           28
                    RWA PROCUREMENT FILE DEFICIENCIES
                               (Continued)


Notes:


   1. These orders were completed for 1 to 5 years before they were closed out.

   2. RWA files and/or procurement files were not available for these orders.

   3. RWA 2830333 showed that the last billing was dated 3/25/02, but the RWA was
      not closed out until 1/18/06.

   4. RWA 2830553 showed that the work was completed on 2/20/03 and the last
      billing was dated 9/25/03, but the RWA was not closed out until 1/27/06.

   5. No exception noted.

   6. The last billing for RWA 2616010 was 8/25/01, but the RWA was not closed out
      until 7/12/05.

   7. The IBAA N9291807 was missing. The project started 9/26/02 and has not been
      closed out.

   8. RWA 3444883 showed that the last billing was dated 3/25/05, but the project has
      not been closed out.

   9. RWA 3377594 has a recent start of 9/30/05 and we attempted to review the file.
      The RWA and procurement files were missing and the RWA has not been closed
      out.

   10. RWA 3377565 started 7/14/04 and was closed out on 6/30/05. We attempted to
       review the RWA and procurement files but both were missing.

   11. The last billing for RWA 2829849 was dated 11/25/01 but the RWA was not
       closed out until 7/12/05. The RWA file was available but the procurement file
       was missing.

   12. The last billing for RWA 2830074 was dated 4/25/02 but the RWA was not closed
       until 7/12/05.


                                                                        APPENDIX G



                                         29
                  RWA PROCUREMENT FILE DEFICIENCIES
                             (Continued)


13. RWA file 2830197 showed the work as completed on 11/28/01 and the last billing
    was dated 8/25/02, but the RWA was not closed out until 2/14/06.

14. The last billing for RWA 2830265 was dated 4/25/02, but the RWA was not
    closed out until 7/12/05. Both the RWA file and the procurement file were
    missing.

15. The last billing for RWA 2830605 was dated 5/25/02, but the RWA was not
    closed out until 2/14/06. Both the RWA file and the procurement file were
    missing.

16. The last billing for RWA 3117602 was dated 12/25/03, but the RWA was not
    closed out until 2/14/06. Both the RWA and procurement file were missing.

17. The last billing for RWA 2615516 was dated 8/25/02, but the RWA was not
    closed out until 1/13/05. Both the RWA file and the procurement file were
    missing.

18. RWA 2830443 showed the work as completed on 8/11/03 and the last billing was
    dated 9/25/03, but the RWA was not closed out until 4/11/06.

19. RWA 2830456 showed the work as completed on 2/3/03 and the last billing was
    dated 9/25/03, but the RWA was not closed out until 4/14/05.

20. RWA 2830731 showed the work as completed on 9/30/02 and the last billing was
    dated 9/25/03, but the RWA was not closed out until 4/11/06.

21. RWA 3117709 showed the work as completed on 8/8/03 and the last billing was
    dated 2/25/04, but the RWA was not closed out until 2/14/06.

22. No exception noted.

23. The last billing for RWA 1529182 was dated 9/25/00, but the RWA was not
    closed out until 9/30/05. The RWA file was available but the procurement file
    was missing.

24. The last billing for RWA 1529250 was dated 12/25/00, but the RWA was not
    closed out until 1/13/05. The RWA file was available but the procurement file was
    missing.
                                                                       APPENDIX G



                                       30
                 RWA PROCUREMENT FILE DEFICIENCIES
                            (Continued)


25. No exception noted.

26. The last billing for RWA 2615545 was dated 9/25/01, but the RWA was not
    closed out until 3/16/06. Both the RWA file and the procurement file were
    missing.

27. RWA 2615804 showed that the final inspection was performed on 6/5/01 and the
    last billing was dated 8/25/01, but the RWA was not closed out until 3/16/06.

28. RWA 2830032 showed the work as completed on 5/28/03, and the last billing
    was dated 10/25/02, but the RWA was not closed out until 7/12/05.

29. RWA 3118229 showed the work as completed on 10/10/03, and the last billing
    was dated 3/25/04, but the RWA was not closed out until 6/1/05.

30. The IBAA N9290633 showed that work was started 9/3/02. The file showed that
    the project was completed 11/17/02, but the project has not been closed out.




                                     31
                                                        APPENDIX H
                    AUDIT OF THE
        GREATER CHICAGOLAND SERVICE CENTER
             PUBLIC BUILDINGS SERVICE
                GREAT LAKES REGION
          REPORT NUMBER A060125/P/5/R08004

REGIONAL ADMINISTRATOR’S RESPONSE TO THE DRAFT REPORT




                         32
                                                        APPENDIX H
REGIONAL ADMINISTRATOR’S RESPONSE TO THE DRAFT REPORT
                    (Continued)




                         33
                                                        APPENDIX H
REGIONAL ADMINISTRATOR’S RESPONSE TO THE DRAFT REPORT
                    (Continued)




                         34
                                                        APPENDIX H
REGIONAL ADMINISTRATOR’S RESPONSE TO THE DRAFT REPORT
                    (Continued)




                         35
                                                         APPENDIX I


                                AUDIT OF THE
                    GREATER CHICAGOLAND SERVICE CENTER
                          PUBLIC BUILDINGS SERVICE
                            GREAT LAKES REGION
                      REPORT NUMBER A060125/P/5/R08004

                                REPORT DISTRIBUTION

                                                             Copies

Regional Administrator (5A)                                      3

Commissioner, Public Buildings Service (P)                       1

Assistant Inspector General for Auditing (JA)                    3

Assistant Inspector General for Investigations (JI)              1

Internal Control and Audit Division (BEI)                        1




                                            36
